DOCKET NUMBER
ea CAG A Ta TROT)
IN THE UNITED STATES SUPREME COURT
RRA

UNITED STATES OF AMERICA

Plaintiff/Respondent
DARIUS TIRRELL THOMAS
Defendant/Petitioner
senses
PROOF OF SERVICE
senses

» Christian Lanier, appointed counsel for the Petitioner, Darius Tirrell Thomas, do
I... or declare that on this date, November 2, 2020, as required by Supreme Court
Rule 29, I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party commercial carrier for

delivery within 3 calendar days.

Page -1-
The names and addresses of those served are as follows:

Mr. James Brooks

US Department of Justice (Chattanooga USAO)
Office of U S Attorney

1110 Market Street

Suite 515

Chattanooga, TN 37402

Mr. Noel Francisco

Solicitor General of the United States
Office of the Solicitor General

950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

Mr. Darius Tirrell Thomas, #52702-074

FCI Gilmer

FEDERAL CORRECTIONAL INSTITUTION
P.O. BOX 6000

GLENVILLE, WV 26351

I declare under penalty of perjury that the foregoing is true and correct. Executed

onNovember 2, 2020.

Respectfully submitted,

   

‘torney For Petitioner, BPR # 4670
Darius Tirrell Thomas

Suite 412, 2158 Northgate Park Lane
Chattanooga, TN 37415

Telephone 423-756-1015

Fax 423-756-1208

Lanierlaw@comcast.net

Page -2-
